 SIGAR                                   Special Inspector General for
                                          Afghanistan Reconstruction




                                                  SIGAR 14-14 Financial Audit




        USAID’s Rural Finance and Cooperative Development
        Project: Audit of Costs Incurred by World Council of Credit
        Unions, Inc.




                                                 DECEMBER
                                                                 2013

SIGAR 14-14–FA / RUFCOD project
December 16, 2013


Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Mr. William Hammink
Afghanistan Mission Director, U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by World Council of Credit Unions, Inc. (WOCCU)
under a contract with the United States Agency for International Development’s (USAID)-funded Rural Finance
and Cooperative Development (RUFCOD) project. 1 The audit covered the period December 6, 2009, through
December 5, 2012, and was performed by Crowe Horwath. It covered $41,047,327 in expenditures.
The project’s purpose was to expand access to credit markets by providing loans to small businesses, farmers,
low and middle income households, and women in southern and eastern Afghanistan. This effort was
completed through expansion of the Islamic Investment and Finance Cooperative Network. 2
The objectives of this financial audit were to

    •    render an opinion on the fair presentation of WOCCU’s Fund Accountability Statement; 3
    •    determine and report on whether WOCCU has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in WOCCU’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Crowe
Horwath’s audit results and found them to be in accordance with generally accepted government auditing
standards.
Crowe Horwath found that the Fund Accountability Statement presented fairly, in all material respects,
revenues received and costs incurred under the contract and identified no findings from prior audits or
assessments for follow-up or corrective action. However, Crowe Horwath identified three material weaknesses
in internal control, three significant deficiencies in internal control, and five instances of material
noncompliance. Where internal control and compliance findings pertained to the same matter, they were




1 USAID contract 306-C-00-09-00531-00 provided loans to specified segments of Afghan society.
2 The Islamic Investment and Finance Cooperative Network is comprised of lending and savings service providers, which
are primarily located in poppy-production areas, such as Kandahar, Helmand, Uruzgan, and Kunar provinces.
3 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
consolidated within a single finding. These findings prompted the auditors to question a total of $97,363 in
unsupported costs. 4 The audit did not identify any ineligible costs. 5 Table 1 summarizes the questioned costs.
Table 1 - Summary of Questioned Costs
 Category                                     Questioned Costs Total             Ineligible                   Unsupported

 Personnel                                                     $41,737                                             $41.737

 Equipment/Supplies                                            $43,488                                             $43,488

 Sub grantees                                                  $12,138                                             $12,138

 Totals                                                        $97,363              $0                             $97,363



In addition, Crowe Horwath identified an instance where WOCCU had not remitted an estimated $1,053 in
interest on advances provided by USAID.
Given the results of the audit, SIGAR recommends that the Contracting Officer:

     1. Determine the allowability of and recover, as appropriate, $97,363 in questioned costs identified in
        the report.

     2. Recover, as appropriate, the estimated $1,053 in interest revenue earned from advances provided.

     3. Advise WOCCU to address the six internal control findings identified in the report.
     4. Advise WOCCU to address the five compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




(F-019)




4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.
5 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by State to make a final determination regarding allowability.




                                                           2
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
             World Council of Credit Unions, Inc.

               Fund Accountability Statement

Rural Finance and Cooperative Development (“RUFCOD”) Project

  For the Period December 6, 2009, through December 5, 2012

         (With Independent Auditor’s Report Thereon)
SIGAR                                                                     World Council of Credit Unions, Inc.




Table of Contents
Transmittal Letter .................................................................................................................................... 1 

Summary .................................................................................................................................................. 2 

INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT ................. 6 

INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ..................................................... 12 

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE.................................................................. 14 

SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS................................................. 16 

SECTION 2 – Summary Schedule of Prior Audit, Review, and Assessment Findings .................. 27 

APPENDIX A – Schedule of Cash Balances and Calculation of Imputed Interest ......................... 28 

APPENDIX B - Views of Responsible Officials .................................................................................. 30 




                                                               www.crowehorwath.com


© Copyright 2013 Crowe Horwath LLP
SIGAR                                           World Council of Credit Unions, Inc.                                1




                                                                          Crowe Horwath LLP
                                                                          Independent Member Crowe Horwath International

                                                                          1325 G Street NW, Suite 500
                                                                          Washington D.C. 20005-3136
                                                                          Tel 202.624.5555
                                                                          Fax 202.624.8858
                                                                          www.crowehorwath.com

Transmittal Letter
November 12, 2013

To the Board of Directors and Management of the World Council of Credit Unions, Inc.
5710 Mineral Point Road
Madison, Wisconsin 53705


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202

We appreciate the opportunity to provide to you our report regarding the procedures that we have
completed during the course of our audit of the World Council of Credit Union’s (“WOCCU”) contract with
the United States Agency for International Development funding the Rural Finance and Cooperative
Development (“RUFCOD”) project.

Within the pages that follow, we have provided a brief summary of the work performed. Following the
summary, we have incorporated our report on the Fund Accountability Statement, report on internal
control, and report on compliance. Accordingly, we do not express an opinion on the summary and any
information preceding our reports.

When preparing our report, we considered comments, feedback, and interpretations provided by WOCCU
and the Office of the Special Inspector General for Afghanistan Reconstruction both in writing and orally
throughout the audit planning and fieldwork phases. Management’s final written responses have been
incorporated into the final report. Modifications were made to the initial findings reported in the draft
report following our review of management’s responses and the accompanying supporting
documentation, as appropriate.

Thank you for providing us the opportunity to work with you and to conduct the financial audit of
WOCCU’s RUFCOD project.


Sincerely,



John Weber, CPA, Partner
Crowe Horwath LLP




                                         www.crowehorwath.com


© Copyright 2013 Crowe Horwath LLP
SIGAR                                             World Council of Credit Unions, Inc.                  2




Summary
Background
The World Council of Credit Unions, Inc. (“WOCCU”) entered into a cost plus fixed fee contract with the
United States Agency for International Development (“USAID”) to expand access to credit markets by
providing loans to small businesses, farmers, low and middle income households, and women in southern
and eastern Afghanistan. This was expected to be completed primarily through expansion of the Islamic
Investment and Finance Cooperative (“IIFC”) network. The contract – 306-C-00-09-00531-00 –
incorporated an initial project budget and ceiling price of $60,470,552, inclusive of costs for
reimbursement and a fixed fee. The funds were set aside for an initial period of performance established
as December 6, 2009, through December 5, 2010. USAID exercised two optional extension years and
granted fifteen modifications subsequent to execution of the initial contract that resulted in a final project
completion date of December 5, 2012, and a final ceiling price of $46,187,445. WOCCU expended
$41,047,327 throughout the contract period. The project was entitled the Rural Finance and Cooperative
Development project (“RUFCOD”).

Throughout the three years that the contract work was performed, WOCCU collaborated with citizens in
Afghanistan, USAID, local governments, and the IIFCs. As reported in WOCCU’s final report on the
RUFCOD project, results (unaudited by Crowe) included, but were not limited to:

     Twenty-five remaining active IIFCs as of December 2012 with seven points of service in fourteen
     separate provinces;
     A combined IIFC membership of 91,291, including 12,682 women;
     Provision of more than 100,000 loans to individuals and organizations in various lines of business;
     and
     Creation of 153,694 new jobs.

Project work concluded in December 2012, and the project has been closed.

Work Performed
Crowe Horwath LLP (“Crowe”) was engaged by the Office of the Special Inspector General for
Afghanistan Reconstruction (“SIGAR”) to conduct a financial audit of WOCCU’s RUFCOD project.

Objectives Defined by SIGAR
The following audit objectives were defined within the Performance Work Statement for Financial Audits
of Costs Incurred by Organizations Task ordered by the U.S. Government for Reconstruction Activities in
Afghanistan:

Audit Objective 1 – Internal Controls
Evaluate and obtain a sufficient understanding of the audited entity’s internal control related to the award;
assess control risk; and identify and report on significant deficiencies including material internal control
weaknesses.




                                           www.crowehorwath.com


© Copyright 2013 Crowe Horwath LLP
SIGAR                                           World Council of Credit Unions, Inc.               3



Audit Objective 2 – Compliance
Perform tests to determine whether the audited entity complied, in all material respects, with the award
requirements and applicable laws and regulations; and identify and report on instances of material
noncompliance with terms of the award and applicable laws and regulations, including potential fraud or
abuse that may have occurred.

Audit Objective 3 – Corrective Action on Prior Findings and Recommendations

Determine and report on whether the audited entity has taken adequate corrective action to address
findings and recommendations from previous engagements that could have a material effect on the fund
accountability statement.

Audit Objective 4 – Fund Accountability Statement

Express an opinion on whether the Fund Accountability Statement for the award presents fairly, in all
material respects, revenues received, costs incurred, items directly procured by the U.S. Government and
fund balance for the period audited in conformity with the terms of the award and accounting principles
generally accepted in the United States of America or other comprehensive basis of accounting.

Scope
The scope of the audit included the period December 6, 2009, through December 5, 2012, for the
RUFCOD project. The audit was limited to those matters and procedures pertinent to the contract that
have a direct and material effect on the Fund Accountability Statement (“FAS”) and evaluation of the
presentation, content, and underlying records of the FAS. The audit included reviewing the financial
records that support the FAS to determine if there were material misstatements and if the FAS was
presented in the format required by SIGAR. In addition, the following areas were determined to be direct
and material and, as a result, were included within the audit program for detailed evaluation:

     Allowable Costs;
     Allowable Activities;
     Cash Management;
     Equipment and Property Management;
     Period of Availability of Federal Funds;
     Procurement;
     Program Income;
     Reporting; and
     Special Tests and Provisions, including matters pertaining to disposition of loan capital at the
     conclusion of the project, separate accounting of U.S. project funds from other funding sources, and
     vetting of contractors and subgrantees to determine if they are or were suspected of potentially
     supporting or funding terrorist activities.

Methodology
To meet the aforementioned objectives, Crowe completed a series of tests and procedures to audit the
FAS, tested compliance and considered the auditee’s internal controls over compliance and financial
reporting, and determined if adequate corrective action was taken in response to prior audit findings and
review comments.
For purposes of meeting Audit Objective 1 regarding internal control, Crowe requested and the auditee
provided copies of policies and procedures and verbally communicated those procedures that do not exist
in written format to provide Crowe with an understanding of the system of internal control established by


                                          www.crowehorwath.com


© Copyright 2013 Crowe Horwath LLP
SIGAR                                              World Council of Credit Unions, Inc.                   4



WOCCU. The system of internal control is intended to provide reasonable assurance of achieving
reliable financial and performance reporting and compliance with applicable laws and regulations. Crowe
corroborated internal controls identified by the auditee and conducted testing of select key controls to
understand if they were implemented as designed.

Audit Objective 2 requires that tests be performed to obtain an understanding of the auditee’s compliance
with requirements applicable to the contract. Crowe identified – through review and evaluation of the
contract executed by and between WOCCU and USAID, the Federal Acquisition Regulation (“FAR”), the
USAID Acquisition Regulation (“AIDAR”), and supplemental guidance provided to WOCCU by USAID
regarding advance payment procedures – the criteria against which to test the FAS and supporting
financial records and documentation. Using sampling techniques, Crowe selected expenditures, cash
drawdowns and advance payment requests submitted to USAID, procurements, property and equipment
dispositions, cash disbursements, and project reports for audit. Supporting documentation was provided
by the auditee and subsequently evaluated to assess WOCCU’s compliance. Testing of indirect costs
was limited to determining whether indirect costs were calculated and charged to the U.S. Government in
accordance with the negotiated indirect cost rate agreements (“NICRA”) and associated contract
restrictions.

To obtain an understanding of the nature of audit reports and other assessments that were completed
and the required corrective action, Crowe inquired of WOCCU and USAID regarding prior audits and
reviews. One compliance review of the RUFCOD project’s procurement and vetting procedures was
completed.

With regard to Audit Objective 4 pertaining to the FAS, transactions were selected from the financial
records underlying the FAS and the transactions were tested to determine if the transactions were
recorded in accordance with the basis of accounting identified by the auditee; were incurred within the
period covered by the FAS and in alignment with specified cutoff dates; were charged to the appropriate
budgetary accounts; and were adequately supported.

Due to the location and nature of the project work and certain vendors and individuals who supported the
project still residing in Afghanistan, certain audit procedures were performed on-site in Afghanistan as
deemed necessary.

Summary of Results
Upon completion of Crowe’s procedures, Crowe identified seven findings because they met one or more
of the following criteria: (1) significant deficiencies in internal control, (2) material weaknesses in internal
control, and/or (3) noncompliance with rules, laws, regulations, or the terms and conditions of the
contract. Other matters that did not meet the criteria were either reported within a management letter
dated November 12, 2013, or were communicated verbally to WOCCU.

Crowe also reported on both WOCCU’s compliance with the applicable laws, rules, regulations, and the
terms and conditions of the contract and the internal controls over compliance. Three material
weaknesses in internal control, three significant deficiencies in internal control, and five instances of
material noncompliance were reported. Where internal control and compliance findings pertained to the
same matter, they were consolidated within a single finding. A total of $97,363 in costs was questioned as
presented in TABLE A contained herein.

Finding 2013-03 includes $1,053 in estimated interest that is payable to the Government based on
WOCCU’s carrying excess cash for multiple periods during the contract’s period of performance. The
amount represents foregone interest that would have been received or earned by the Government and
does not have an impact on the costs incurred.




                                            www.crowehorwath.com


© Copyright 2013 Crowe Horwath LLP
SIGAR                                                     World Council of Credit Unions, Inc.            5



Crowe also requested copies of prior audits, reviews, and evaluations pertinent to WOCCU's financial
performance under the contract. WOCCU provided a copy of one compliance review report that was
completed along with management's responses. Per communications with WOCCU and USAID, USAID
has neither issued a final disposition nor advised WOCCU regarding required corrective action. Crowe,
therefore, limited its procedures to conducting reviews of the audit documentation obtained during the
course of its audit to determine if the matters reported in the compliance review report were repeated or
observed.

Crowe issued an unqualified opinion on the FAS.

This summary is intended to present an overview of the results of procedures completed for the purposes
described herein and is not intended to be a representation of the audit's results in their entirety.

                              TABLE A : Summary of Findings and Questioned Costs

                                                     Matter



                                     Contracting   Officer   Approval         of
             2013-02                                                                       $43,488    $85,225
                                     Equipment and Property Purchases
             2013-03                 Excess Cash Balances                                        $0   $85,225
                                     Documentation   of   Disbursements       to
             2013-04                                                                       $12, 138   $97,363
                                     Subgrantees
             2013-05                 Foreign Currency Exchanges                                  $0   $97,363
             2013-06                 Subgrantee Monitoring                                       $0   $97,363
                                     Verification of Vendor and Employees'
             2013-07                                                                lndetenninable    $97,363
                                     Existence
 Total Questioned Costs                                                                               $97,363

Summary of Management Comments

WOCCU generally agreed with the facts underlying the findings, as presented. Additional documentation
was provided in support of requested modifications to findings 2013-01 and 2013-4. WOCCU also
provided additional context for the findings, including references to actions taken by the Chief of Party
during the contract's period of performance and regarding the working environment in Afghanistan.

References to Appendices

The auditor's reports are supplemented by two appendices. Appendix A includes a schedule identifying
the months in which excess cash was held by WOCCU , and also presents the calculation of imputed
interest resulting from excess cash balances as referenced in Finding 2013-03. Appendix 8 includes the
Views of Responsible Officials, which are management's responses to the findings presented within the
report.




lA Crowe Horwath.                                W'N'N.crowehorwath.com


@Copyright 20 13 Crowe Horwath LLP
                                                                                 Crowe Horwath LLP
                                                                                 Independent Member Crowe Horwath International




       INDEPENDENT AUDITOR’S REPORT ON THE FUND ACCOUNTABILITY STATEMENT


To the Board of Directors and Management of the World Council of Credit Unions, Inc.
5710 Mineral Point Road
Madison, Wisconsin 53705


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


Report on the Fund Accountability Statement

We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the Fund Accountability Statement (“the
Statement”) of the World Council of Credit Unions, Inc. (“WOCCU”) and related notes to the Statement,
for the period December 6, 2009, through December 5, 2012, with respect to the Rural Finance and
Cooperative Development (“RUFCOD”) project funded by contract number 306-C-00-09-00531-00. We
have issued our report thereon dated November 12, 2013.


Management’s Responsibility for the Fund Accountability Statement

Management is responsible for the preparation and fair presentation of the Statement in accordance with
the requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
(SIGAR) in Appendix V of Solicitation ID05130041 (“Contract”). Management is also responsible for the
design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of a Statement that is free from material misstatement, whether due to fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Fund Accountability Statement based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Statement is free of material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the Statement. The procedures selected depend on the auditor’s judgment, including the assessment of
the risks of material misstatement of the Statement, whether due to fraud or error. In making those risk
assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion.




                                              (Continued)

                                                                                                               6.
An audit also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as evaluating the
overall presentation of the Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.

Opinion

In our opinion, the Statement referred to above presents fairly, in all material respects, program revenues
and costs incurred for the indicated period in accordance with the requirements established by the Office
of the Special Inspector General for Afghanistan Reconstruction in Appendix V of the Contract and on the
basis of accounting described in Note 2.

Basis of Presentation

We draw attention to Note 1 to the Statement, which describes the basis of presentation. The schedule
was prepared by WOCCU in accordance with the requirements specified by the Office of the Special
Inspector General for Afghanistan Reconstruction in Appendix V of the Contract and presents those
expenditures and fixed fee payments as permitted under the terms of contract number 306-C-00-09-
00531-00, which is a basis of accounting other than accounting principles generally accepted in the
United States of America, to comply with the financial reporting provisions of the contract referred to
above. Our opinion is not modified with respect to this matter.

Restriction on Use

This report is intended for the information of the World Council of Credit Unions, Inc., the United States
Agency for International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.

Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated November 12,
2013, on our consideration of WOCCU’s internal controls over financial reporting and on our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on internal control over financial
reporting or on compliance. Those reports are an integral part of an audit performed in accordance with
Government Auditing Standards and should be considered in assessing the results of our audit.




                                                          Crowe Horwath LLP

November 12, 2013
Washington, D.C.




                                                                                                          7.
                                                           Fund Accountability Statement

                                                           World Council of Credit Unions, Inc.
                                                             Contract No. 306-C-00-09-00531
                                               For the Period December 6, 2009, through December 5, 2012

                                                                                                                       Questioned Costs

                                                Budget                      Actual                    Ineligible       Unsupported        Notes
Revenues
USAID - 306-C-00-09-00531                $          46,187,445     $           41,047,327

Total Revenue                                       46,187,445                 41,047,327



Costs Incurred
Technical Assistance
 Salaries                        $                   3,121,040     $            2,950,154                          $        41,737          A
 Benefits                                              931,593                    845,603                                      -
 Allowances                                          1,592,654                  1,530,671                                      -
 Consultants/Contracted Services                     9,337,015                  8,493,744                                      -
 Travel/Relocation                                     357,143                    310,337                                      -
 Equipment                                             248,320                    246,001                                   43,488         B
 Training                                               74,320                     71,021                                      -
 Other Direct Costs                                  2,578,492                  2,199,907                                      -
 Indirect Costs                                      4,235,582                  3,779,761                                      -
Technical Assistance

Development Grants
 Development Grants                                  6,327,231                  4,887,270                                   12,138         C
 Subordinated Investment Funds                      16,462,609                 14,811,412
Development Grants

Contract Fixed Fee                                     921,446                    921,446

Total Costs Incurred                                46,187,445                 41,047,327                                   97,363

Fund Balance                             $                  -      $                    -

The accompanying notes to the Fund Accountability Statement are an integral part of this Statement.




                                                                                                                                                  8.
                                 World Council of Credit Unions, Inc.
                             Notes to the Fund Accountability Statement
                     For the Period December 6, 2009, through December 5, 2012


Note 1. Basis of Presentation

The accompanying Fund Accountability Statement (the "Statement") includes costs incurred under
Contract Number 306-C-00-09-00531-00 for the Rural Finance and Cooperative Development
(“RUFCOD”) project for the period December 6, 2009, through December 5, 2012. Because the
Statement presents only a selected portion of the operations of the World Council of Credit Unions, Inc.
(“WOCCU”), it is not intended to and does not present the financial position, changes in net assets, or
cash flows of WOCCU. The information in this Statement is presented in accordance with the
requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
("SIGAR") and is specific to the aforementioned Federal contract. Therefore, some amounts presented in
this Statement may differ from amounts presented in, or used in the preparation of, the basic financial
statements.


Note 2. Basis of Accounting

Expenditures reported on the Statement are required to be presented in accordance with accounting
principles generally accepted in the United States of America and, therefore, are reported on the accrual
basis of accounting. Such expenditures are recognized following the cost principles contained in OMB
Circular A-122, Cost Principles for Non-Profit Organizations, wherein certain types of expenditures are not
allowable or are limited as to reimbursement, and the requirements of Section 52.216-8 of the Federal
Acquisition Regulation pertaining to fixed fee contracts.


Note 3. Foreign Currency Conversion Method

For purposes of preparing the Statement, conversions from local currency to United States dollars
(“USD”) were required for those transactions that occurred in the local currency. WOCCU’s accounting
policy to accurately record project expenses states that the accounting specialist will verify exchange rate
calculations for accuracy and reasonableness and compare them to prior months or current exchange
rates found online. For the RUFCOD project, all exchange rate conversions were done in the field. Cash
advances to the field were all done in USD and expenses were reported back in USD. Supporting
documentation for the field expenses included exchange rate conversions on each voucher and they
were reviewed for accuracy and reasonableness.


Note 4. Revenues

Revenues on the Statement represent the amount of funds to which WOCCU is entitled to receive from
USAID for allowable, eligible costs incurred under the contract during the period of performance and the
fixed fee amount approved in the contract.


Note 5. Costs Incurred by Budget Category

The budget categories presented and associated amounts reflect the budget line items presented within
the final, USAID-approved contract budget adopted as a component of the Modification Number 15 to the
contract dated October 17, 2012.




                                               (Continued)

                                                                                                          9.
Note 6. Fund Balance

The fund balance presented on the Statement represents the difference between funds received and
costs incurred such that an amount greater than $0 would reflect that funds have been received that
exceed the costs incurred or charged to the contract and an amount less than $0 would indicate that
costs have been incurred, but are pending additional evaluation before a final determination of allowability
and amount of revenue earned may be made.


Note 7. Currency

All amounts presented are shown in United States dollars - the reporting currency of WOCCU.


Note 8. Questioned Costs

Questioned costs are those costs that are questioned by the auditor because of an audit finding:
(1) which resulted from a violation or possible violation of a provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the use of Federal funds, including
funds used to match Federal funds; (2) where, at the time of the audit, are not supported by adequate
documentation; or (3) where the costs incurred appear unreasonable and do not reflect the actions a
prudent person would take in the circumstances. Questioned costs are presented in the Statement in two
categories: unsupported and ineligible costs. Unsupported costs are those costs for which adequate or
sufficient documentation necessary for the auditor to determine the allowability and accuracy of costs was
not made available. Ineligible costs are those costs that the auditor has determined to be unallowable or
inaccurate and recommended for exclusion from the Statement and for a final determination by the
USAID Contracting Officer.


Note 9. Subsequent Events

WOCCU Management has performed an analysis of the activities and transactions subsequent to the
December 6, 2009, through December 5, 2012, period of performance. Management has performed its
analysis through November 12, 2013.




                                                                                                         10.
          Notes to the Questioned Costs Presented on the Fund Accountability Statement1


Note A. Allowable Costs: Employee Billing Records

Finding 2013-01 identified $41,737 in questioned costs that resulted from missing employee billing
records (i.e., timesheets) and billing records that were signed by neither the supervisor nor the employee.


Note B. Contracting Officer Approval of Equipment and Property Purchases

Finding 2013-02 questions $43,488 in costs associated with equipment and property purchased for the
contract, but for which documentation of the Contracting Officer’s approval was not obtained.


Note C. Cash Management: Documentation of Disbursements to Subgrantees

Finding 2013-04 questions $12,138 in costs recorded for subgrantee payments, but for which WOCCU
could not provide adequate evidence showing that the Federal funds were provided to the subgrantees by
the field office.




1
  Notes to the Questioned Costs Presented on the Fund Accountability Statement were prepared by the auditor for
informational purposes only and as such are not part of the audited Statement.




                                                                                                              11.
                                                                                     Crowe Horwath LLP
                                                                                     Independent Member Crowe Horwath International




                   INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


To the Board of Directors and Management of the World Council of Credit Unions, Inc.
5710 Mineral Point Road
Madison, Wisconsin 53705


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the Fund Accountability Statement (“the
Statement” of the World Council of Credit Unions, Inc. (“WOCCU”) and related notes to the Statement, for
the period December 6, 2009, through December 5, 2012, with respect to the Rural Finance and
Cooperative Development (“RUFCOD”) project funded by contract number 306-C-00-09-00531-00. We
have issued our report thereon dated November 12, 2013.

Internal Control over Financial Reporting

WOCCU’s management is responsible for establishing and maintaining effective internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies and procedures. The objectives of internal control
are to provide management with reasonable, but not absolute, assurance that the assets are safeguarded
against loss from unauthorized use or disposition; transactions are executed in accordance with
management’s authorization and in accordance with the terms of the contract; and transactions are
recorded properly to permit the preparation of the Statement in conformity with the basis of presentation
described in Note 1 to the Statement. Because of inherent limitations in internal control, errors or fraud
may nevertheless occur and not be detected. Also, projection of any evaluation of the structure to future
periods is subject to the risk that procedures may become inadequate because of changes in conditions
or that the effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Statement for the period December 6, 2009, through
December 5, 2012, we considered WOCCU’s internal controls to determine audit procedures that are
appropriate in the circumstances for the purpose of expressing our opinion on the Statement, but not for
the purpose of expressing an opinion on the effectiveness of WOCCU’s internal control. Accordingly, we
do not express an opinion on the effectiveness of WOCCU’s internal control.

Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and, therefore, material weaknesses or significant deficiencies may exist that were
not identified. However, as described in the accompanying Schedule of Findings and Questioned Costs,
we identified certain deficiencies in internal control that we consider to be material weaknesses and
significant deficiencies.




                                               (Continued)

                                                                                                                  12.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the Statement will not be prevented, or detected and corrected, on a timely basis. We
consider the deficiencies noted in Findings 2013-01, 2013-03, and 2013-04 in the accompanying
Schedule of Findings and Questioned Costs to be material weaknesses.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less
severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiencies noted in Findings 2013-02, 2013-06, and 2013-07 in the
accompanying Schedule of Findings and Questioned Costs to be significant deficiencies.

We noted certain matters that we reported to WOCCU’s management in a separate letter dated
November 12, 2013.

WOCCU’s Response to Findings

WOCCU’s responses to the findings identified in our audit are attached as Appendix B to this report. We
did not audit WOCCU’s responses and, accordingly, we express no opinion on them.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results
of that testing, and not to provide an opinion on the effectiveness of the entity’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the entity’s internal control. Accordingly, this communication is not suitable for any other
purpose.

Restriction on Use

This report is intended for the information of the World Council of Credit Unions, Inc., the United States
Agency for International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.




                                                          Crowe Horwath LLP

November 12, 2013
Washington, D.C.




                                                                                                         13.
                                                                                   Crowe Horwath LLP
                                                                                   Independent Member Crowe Horwath International




                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


To the Board of Directors and Management of the World Council of Credit Unions, Inc.
5710 Mineral Point Road
Madison, Wisconsin 53705


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the Fund Accountability Statement (“the
Statement”) of the World Council of Credit Unions, Inc. (“WOCCU”) and related notes to the Statement,
for the period December 6, 2009, through December 5, 2012, with respect to the Rural Finance and
Cooperative Development (“RUFCOD”) project funded by contract number 306-C-00-09-00531-00. We
have issued our report thereon dated November 12, 2013.

Management’s Responsibility for Compliance

Compliance with Federal rules, laws, regulations, and the terms and conditions applicable to the contract
are the responsibility of the management of the World Council of Credit Unions, Inc.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Statement is free of material misstatement,
we performed tests of its compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and, accordingly, we do not express such an opinion. The results of our tests
disclosed instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards and which are described in Findings 2013-01, 2013-02, 2013-03, 2013-
04, and 2013-05 in the accompanying Schedule of Findings and Questioned Costs.

We noted certain matters that we reported to WOCCU’s management in a separate letter dated
November 12, 2013.

WOCCU’s Response to Findings

WOCCU’s responses to the findings identified in our audit are attached as Appendix B to this report. We
did not audit WOCCU’s responses and, accordingly, we express no opinion on them.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of
that testing, and not to provide an opinion on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the entity’s internal control
and compliance. Accordingly, this communication is not suitable for any other purpose.


                                               (Continued)

                                                                                                                14.
Restriction on Use

This report is intended for the information of the World Council of Credit Unions, Inc., the United States
Agency for International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.




                                                         Crowe Horwath LLP

November 12, 2013
Washington, D.C.




                                                                                                      15.
SECTION I: SCHEDULE OF FINDINGS AND QUESTIONED COSTS

Finding 2013-01: Employee Billing Records and Approvals

Material Weakness and Non-Compliance

Criteria: Charges to awards for salaries and wages, per OMB Circular A-122, Attachment B, Section 8(m),
must be based on documented payrolls approved by a responsible official of the organization, and must
be supported by reports that meet the following standards:

        Reflect an after-the-fact distribution of the actual activity of each employee;
        Account for the total activity for which employees are compensated and which is required in
        fulfillment of their obligations to the organization;
        Signed by the individual employee or by a supervisor with first-hand knowledge of the activities
        performed by the employee;
        Be prepared at least monthly and coincide with one or more pay periods; and
        For nonprofessional employees, in addition to the above, must be supported by records indicating
        the total number of hours worked each day.

In addition, WOCCU’s “Accounting Documentation, Contracts, and Employment Letters” policy presents
the following requirement:

        B. Employee billing records – All employees are required to complete monthly billing records.
        These are used as documentation for recording leave time for salaried employees and to allocate
        salaries and benefits to the various departments (cost centers). All employees are required to
        submit their billing record to Accounting within five business days after the close of the month.
        The employee’s direct supervisor is responsible for reviewing and signing the billing records,
        verifying the days worked, and cost centers charged.

        C. Employee timesheets – Hourly employees are required to complete a bi-weekly timesheet.
        These are used as documentation for recording leave time for hourly individuals and to produce
        their bi-weekly payroll checks. Timesheets must be submitted to Accounting no later than 5 pm
        on the Friday preceding each scheduled payroll date. The employee’s direct supervisor is
        responsible for reviewing and signing the timesheets and verifying the hours worked.


Condition: During review of sixty-two personnel cost transactions, five billing records could not be
provided. In the absence of employee time records, it could not be established that the individual was
working on the project at the time and whether the benefit was fully allocable to the RUFCOD project.

An additional six billing records were signed by neither the employee nor the supervisor. WOCCU
provided copies of general ledger entries that were signed by the project manager along with the
unsigned timecards. However, using the information available and the RUFCOD organizational chart
provided by WOCCU, it could not be determined that the project manager had first-hand knowledge of the
activities performed by the employees. The employees represented the following components of the
organizational chart: Technical Advisors – Start Up and Governance; Technical Advisors – Operations &
Accounting; and the Director of Finance.

Six billing records were not signed by the employee. Per WOCCU, the timecards were submitted via
email due to the employees not being based in Madison. The email correspondence including the billing
record submissions was, however, deleted and unavailable for audit.

Lastly, fourteen billing records were not signed by the employee’s supervisor. The allocation of payroll
charges was, therefore, inadequately supported. The total value of transactions that were not fully
supported by employee time records is $102,443.




                                              (Continued)

                                                                                                     16.
The following table summarizes the transactions in question:




  06-10        7/21 /2010           AFII : 06/ 10 Local Salaries



  06-10        7/21 /2010           AFII : 06/ 10 Local Salaries



  10-10         11 /9/2010                     10/ 10 danger pay




                                                                              employee nor the
                                                                              supervisor signed
                                                                              the bi    record.
  06-10        7/13/2010                         06/10 salary        $2,425   Neither the
                                                                              employee nor the
                                                                              supervisor signed
                                                                              the bi    record.
                                                                ry
                                                                              employee nor the
                                                                              supervisor signed
                                                                              the bi    record.
  05-10         6/8/2010                         5/ 10 salary        $4,167   Neither the
                                                                              employee nor the
                                                                              supervisor signed
                                                                              the bi    record.




  09-10        9/24/2010          Abra Check Date: 09/24/2010




  08-10        9/ 14/2010              BL Sai/FB Trf 08/10




                                               (Continued)

                                                                                              17.
                                               11 /10 salary

  07-10         8/18/2010                          07/10 salary

  10-11        11 /14/2011



  04-10         5/18/2010



  05-10         6/16/2010                        05/10 salary



  08-10         9/9/2010                        08/10 salary



  05-10         6/16/2010                    05/10 benefits



  04-11         5/12/2011           AFII: 04/ 11 Local Salaries



  11-11        12/15/2011        AFII : 11/ 11 DG Salaries & Bent




In addition, one employee's -      ) timesheet noted above includes four hours of time worked that was
unbillable. However, 100 percenTOt the employee's payroll costs were charged to the RUFCOD project.
The resultant overcharge was $61 and is included in the total questioned cost.

Questioned costs: $41 ,737 represents the sum of costs associated with missing billing records and billing
records that were signed by neither the employee nor the supervisor as required by Federal regulations.

The remaining $60,706 of the $102,443 is not questioned as it did not violate the applicable Federal
regulation but rather represents a breakdown in internal controls and thus presents a risk of misstatement
or misallocation of costs.

Effect: WOCCU may have obtained funds from USAID for work that was not conducted on the RUFCOD
project and/or may have overcharged the Government thus reducing the amount of funds available for
projects in-country.

Cause: WOCCU indicated that the field office did not provide five timesheets during the time that the
project was winding down due to human error as it focused on project closeout efforts.    WOCCU also
understood that timesheets would not be required to be retained in support of employees receiving
holiday bonus payments. Further, electronic records (i.e. email correspondence) showing that employees
provided their billing records to WOCCU were deleted due to the time elapsed between the pay periods
and the audit.




                                               (Continued)

                                                                                                      18.
The inclusion of unbillable time by employee
                                            -         was, per WOCCU, a clerical error. It is unclear why
other billing records were unsigned by either the employee or the supervisor.

Recommendation: WOCCU should establish a monitoring procedure that includes periodic reviews of
employee billing records to increase the likelihood that missing, unsigned, or unapproved billing records
will be identified during the contract period.

We further recommend that WOCCU provide the supporting documentation for the missing billing records
and evidence of billing record approval or remit payment of $41,737 to the Government.




                                              (Continued)

                                                                                                     19.
Finding 2013-02: Contracting Officer Approval to Purchase Equipment and Property

Significant Deficiency and Non-Compliance

Criteria: Pursuant to Section H.8 of the contract with USAID, Contracting Officer review and approval is
required for the purchase of non-expendable property and information technology resource purchases.
Within AIDAR 752.245-71, USAID defines non-expendable property as “property which is complete in
itself, does not lose its identity or becomes a component part of another article when put into use; is
durable, with an expected service life of two years or more; and which has a unit cost of $500 or more.”

Condition: WOCCU received USAID approval for the purchase of 139 non-expendable property and
information technology items with a projected cost of $203,034. We noted, eight of fourteen items that
required the prior approval of the Contracting Officer were not identified on the approved list of
purchases. WOCCU did not provide alternative documentation showing that the Contracting Officer
approved the purchases. The items that were not approved by the Contracting Officer included:

       Five generators with a combined value of $39,892;
       Two water tanks with a value of $2,100;
       One motorcycle with a value of $975; and
       One refrigerator with a value of $521.

Questioned costs: $43,488

Effect: Project funds may have been used to purchase non-expendable property items that USAID did not
consider to be reasonable or necessary to execute the project’s scope thereby reducing funds available
to contribute to the project’s goals and objectives.

Cause: WOCCU provided an initial request for purchasing approval to USAID, but did not consider an
additional request to be necessary.

Recommendation: We recommend that WOCCU either provide documentation of prior approval by the
contracting officer for the items noted or remit payment to the Government in the amount of $43,488.




                                              (Continued)

                                                                                                    20.
Finding 2013-03: Excess Cash Balances

Material Weakness and Non-Compliance

Criteria: The Guidelines on USAID Cash Advance Policies and Procedures provided to WOCCU by
USAID presents the following guidance:

(a) Advances shall be limited to the minimum amounts needed to meet current disbursement needs
(generally 30 days) and shall be scheduled so that the funds are available to the Contractor as close as is
administratively feasible to the actual disbursements by the contractor for program costs.

(b) Advances made by the contractor to sub-contractors or the contractor’s field offices shall conform
substantially to the same standards of timing and amount as apply to cash advances by USAID to the
main contractor.

(c) After receipt of the initial advance, the contractor shall submit a Standard Form 1034 for each
upcoming month (30 day period), with the statement “Request for Advance” printed at the top of the form.
The contractor may submit a set of these forms on a quarterly basis (i.e. submission of three SF 1034s
one for each month in the upcoming quarter).

(d) At the end of each quarter the contractor shall submit a SF 1034 (marked “Liquidation of Advances”)
to liquidate the advances of the previous quarter. The contractor may submit a new set of SF 1034s
(“Request for Advance”) once the “Liquidation of Advances” has been submitted. Each SF 1034 shall be
identified by the appropriate award number.

Condition: WOCCU submitted standard form 1034 (SF 1034), Public Voucher for Purchases and Services
Other Than Personal, on a periodic basis throughout the project to obtain advance funding for
subordinated loans and subgrantee payments. The amounts requested were based on estimates
provided to WOCCU's headquarters by the field office. WOCCU's headquarters prepared the SF 1034
and, upon review and approval by management, submitted the request to USAID. Upon receipt of the
payment from USAID, WOCCU's headquarters wired funds to the field office. The field office
subsequently disbursed funds upon receipt and review of invoices from each subgrantee and for agreed-
upon loan amounts rather than releasing the full requested amount to each entity. Using the transaction-
based approach resulted in some funds being carried forward to subsequent months and WOCCU's
holding Federal cash for greater than thirty days. The field office did not comply with the timing standards
prescribed by USAID.

Questioned costs: None. Imputed interest on excess cash balances was calculated as $1,053.

Effect: WOCCU overcharged the Government by drawing down funds on a periodic basis without
expending the previous balance of remaining cash. Due to the excess drawdowns, the Government lost
approximately $1,053 in interest.

Cause: WOCCU understood that the liquidation reports were sufficient for purposes of demonstrating the
cash balance. Excess cash balances were the result of actual costs being less than the estimated
amounts.

Recommendation: We recommend that WOCCU remit the imputed interest amount of $1,053 to the
Government. Procedurally, we recommend that WOCCU develop a policy to conduct a review of
remaining funds from previous cash advances prior to requesting additional funds and incorporate these
amounts into the calculation of cash needs within the next thirty days. We further recommend that
WOCCU develop a policy mandating the deposit of advanced cash into interest-bearing accounts and, as
appropriate, remit interest payments to the Government on a periodic basis to reduce the likelihood of
interest losses by the Government in the future.




                                               (Continued)

                                                                                                        21.
Finding 201 3-04: Documentation of Disbursements to Subqrantees

Material Weakness and Non-Compliance

Criteria: Pursuant to OMB Circular A-122 as applicable to WOCCU under the provisions of 48 CFR
Subpart 31 .702, to be allowable, costs must be adequately documented and must be allocable in that
they must be incurred specifically for the award.

In addition, OMB Circular A-133 notes management is responsible for establishing and maintaining a
system of internal control that provides reasonable assurance that assets are safeguarded against loss
from unauthorized use or disposition; transactions are executed in accordance with the terms and
conditions of the contract; and transactions are properly recorded

Condition : WOCCU submitted funding requests to USAID on behalf of itself and its subgrantees. For
thirty disbursements, WOCCU could not provide adequate supporting documentation to show that the full
amount of funds reported as being disbursed to subgrantees was paid by the WOCCU field office and
received by the subgrantees for use on project activities.

Documentation provided for four of the items in question showed that the IIFCs disbursed funds to
vendors and/or employees; however, the support did not demonstrate that the source of the funds making
the payments was the Federal dollars provided to WOCCU's headquarters and subsequently wired to the
field office for disbursement to subgrantees.

The following table summarizes the specific transactions for which the supporting documentation was
inadequate to conclude that the funds provided by USAID were received by the IIFCs and used for the
intended purposes:


                       1034 Request                         D...........              Canunentll
                          llonlh                              In
                      November 2010               $3,822                $783    The amount in question
                                                                                reflects the net of the
                                                                                total disbursement
                                                                                ($3,662) less payroll
                                                                                and fringe payments for
                                                                                which support was




                                                                                                $12,138


In addition to the matters noted above, the support for the- - disbursements included five
disbursements of cash for which the individual preparing th~ursement was not identified ;
rather, only the recipient of the funds and the approver were noted on the disbursement forms. For one
additional component of the disbursements, the individual receiving the funds was also identified as the
recipient of the cash thus suggesting that the individual was permitted to approve a payment to him- or
herself. These matters are considered to be contrary to sound internal control practices intended to help
ensure compliance with Federal regulations and to detect and prevent fraud, waste, and abuse.

Questioned costs: $12,138

Effect: Funds may not have been provided to the intended parties and used for the intended purposes.




                                              (Continued)

                                                                                                       22.
Cause: WOCCU was unaware that documentation showing the transfer of funds to subgrantees should
be retained, and the field office is no longer open which limits the availability of information not previously
requested to be provided.

Recommendation: We recommend that WOCCU refund the Government for those costs that are
unsupported by cash receipt documentation. WOCCU should document a procedure specifying the types
of documentation that should be retained for each disbursement of funds to subgrantees and vendors and
specify a period for which such records should be retained.




                                                 (Continued)

                                                                                                           23.
Finding 2013-05: Foreign Exchange Conversions

Non-Compliance

Criteria: WOCCU's Chief of Party was required to obtain written guidance from the Mission Director
regarding the method for converting U.S. dollars to local currency upon arrival in Afghanistan. AIDAR
752.7010 states: “Upon arrival in the Cooperation Country, and from time to time as appropriate, the
Contractor’s Chief of Party shall consult with the Mission Director who shall provide, in writing, the
procedure the Contractor and its employees shall follow in the conversion of United States dollars to local
currency. This may include, but is not limited to, the conversion of said currency through the cognizant
U.S. Disbursing Officer or Mission Controller, as appropriate.”

Condition: WOCCU indicated that the Afghanistan International Bank (“AIB”) rates were used by the field
for conversions of U.S. dollars to Afghanis (“Afs”) and the home office conducts reviews of exchange
rates for reasonableness using the rates published by OANDA Corporation. To conduct conversions,
WOCCU calculates a weighted average exchange rate based on rates realized during a given time period
and does not use the actual spot rates existing on the date of each conversion. By utilizing a weighted
average approach, foreign currency conversions result in greater or less costs being recorded to the
project than would be realized through a conversion at the spot rate on each payment date.

Questioned costs: None

Effect: The U.S. Government may have been overcharged as a result of the weighted average exchange
rate being used.

Cause: WOCCU stated that it is the organization’s policy to use a weighted average system for all donor-
funded projects to account for exchanges of currency. With regard to the meeting with the Mission to
discuss the USAID-prescribed currency exchange process, WOCCU noted that the activity would have
been completed by the Chief of Party and documentation of such a meeting is not retained in the
headquarters files.

Recommendation: We recommend that WOCCU establish a policy requiring the retention of
documentation of the Chief of Party's meeting with the Mission during which the exchange rate
conversion process established by or agreed to by USAID is communicated. In addition, the
documentation should be provided to those individuals responsible for financial management and
accounting for costs incurred under the contract.




                                               (Continued)

                                                                                                       24.
Finding 2013-06: Subgrantee Monitoring

Significant Deficiency

Criteria: Pursuant to Section H.21 of the contract with USAID, WOCCU must award and administer grants
in accordance with 22 CFR Part 226.51, which requires the following:

"(a) Recipients are responsible for managing and monitoring each project, program, subaward, function or
activity supported by the award. Recipients shall monitor subawards to ensure subrecipients have met
the audit requirements as delineated in Section 226.26."

In addition, pursuant to OMB Circular A-122, costs must be reasonable, allocable, and allowable in order
to be eligible for reimbursement from Federal funds.

Condition: WOCCU established a process through which it monitored the performance of its subgrantees
(including the IIFC Group) in relation to the RUFCOD project's goals and objectives and conducted
reviews of subgrantee costs. However, WOCCU did not have a documented process in place to
determine if subgrantees operated in compliance with other requirements applicable to the award.
Specifically, procedures were not executed to understand if costs incurred were reasonable, funds were
only provided to entities and individuals who were not suspected of being involved in the support of
terrorism and who were neither suspended nor debarred, if subgrantees complied with cash management
requirements, and if funds were used to support only the intended goals and objectives of the contract.

WOCCU indicated that compliance-related monitoring was conducted as a component of the ongoing
work completed with the IIFCs and the IIFC Group. Due to there not being an established process with
clear outputs or deliverables, evidence of the monitoring could not be provided.

Questioned costs: None

Effect: In the absence of a monitoring program that includes compliance-related procedures, WOCCU's
subgrantees may have incurred unreasonable costs that would be considered unallowable per the
applicable cost principles, funded entities that are suspected of supporting terrorist activities or
suspended, debarred, and other excluded parties, or not implemented internal controls to ensure
compliance with Federal regulations without WOCCU's knowledge.

Cause: WOCCU believed the use of financial monitoring through the reporting of performance ratios to be
adequate monitoring. In addition, compliance monitoring was an ongoing procedure as opposed to a
series of discrete, separate events so a written monitoring plan was not developed.

Recommendation: Crowe recommends that WOCCU document and implement monitoring procedures to
be conducted by the home office and/or the field office regarding compliance monitoring of subrecipients.
Such procedures may include conduct of desk reviews, remote compliance monitoring, on-site monitoring
procedures, or a combination thereof.




                                              (Continued)

                                                                                                     25.
Finding 2013-07: Employee and Vendor Verification of Existence

Significant Deficiency

Criteria: In accordance with the provisions of OMB Circular A-122, costs must be adequately supported
and allocable in order to be considered allowable and eligible for reimbursement. In addition, a cost is
allocable if it 1) is incurred specifically for the award; 2) benefits both the award and other work and can
be distributed in reasonable proportion to the benefits received; or 3) is necessary to the overall operation
of the organization although a direct relationship to any particular cost objective cannot be shown.

Condition: Per review of procedures in place for monitoring subgrantees, loan recipients, and vendors,
there was not a process in place to verify the existence of vendors’ located in-country. Personnel files
were retained for employees that included various data elements, including telephone numbers and
addresses. The files did not contain address and telephone information, in each instance.

Using the information provided in personnel files, on vendor invoices, from WOCCU, from the IIFC Group,
and from IIFC Kandahar, two of twenty vendors, loan recipients, and subgrantees and two of ten
individuals charging time to the contract could not be located or otherwise have their existence verified
through first-hand observation or independent, third party resources. Thus, one cannot determine that
charges to the contract for goods and services provided by the vendors and employees were legitimate,
that the efforts benefited the program, and should be allocated to the contract and reported as contract
expenditures

The vendors and individuals who could not be verified were Brothers Hotel, Hizbullah,                     ,
and                  . Due to the manner in which costs incurred in the field are recorded, the total costs
incurred for these individuals and companies could not be readily identified.

Questioned costs: Indeterminable. Due to the manner in which costs incurred in the field are recorded in
the headquarters financial system, the total costs incurred for these individuals and companies could not
be readily identified.

Effect: The absence of procedures to verify existence and reviewing personnel files to ensure
completeness increases the risk that costs may be charged to the contract inappropriately.

Cause: WOCCU relied upon the field office's review of costs incurred for detailed analyses and
evaluations of vendors, and invoices were available to support charges which were considered to be
acceptable supporting documentation. WOCCU also does not track employees’ locations after their
employment ends as there is no requirement to do so and does not have a process in place to determine
that individuals and vendors exist.

Recommendation: WOCCU should document a policy that mandates the incorporation of a valid physical
address and telephone number for local employees’ in-country within personnel files. WOCCU should
also document a procedure that includes the periodic physical verification of vendors' and employees'
work products and offices to ensure that only those individuals who physically exist are submitting costs
to WOCCU that are ultimately charged to the contract.




                                                                                                         26.
SECTION 2 – Summary Schedule of Prior Audit, Review, and Assessment Findings

Per discussion with WOCCU and USAID, one compliance review had been conducted over RUFCOD
project activities. The report had been issued and management’s responses provided to USAID.
However, USAID had not issued a final response regarding required corrective actions or final
dispositions in response to the audit findings. In the absence of final instruction from USAID, there were
no corrective actions required for follow-up by Crowe Horwath.




                                                                                                      27.
APPENDIX A – Schedule of Cash Balances and Calculation of Imputed Interest




                                                                             28.
Total Interest Payable:   $   1,053


                                  29.
APPENDIX B - Views of Responsible Officials




                                              30.
November 12, 2013



Crowe Horwath, LLP
1325 G Street NW, Suite 500
Washington, DC 20005-3136


Subject: Financial Audit Report Response

Dear Sirs:

Attached are World Council of Credit Unions’ Management responses to the findings in the
audit of USAID contract 306-C-00-09-00531-00, “Rural Finance and Cooperative
Development.”

We would take this opportunity to thank you for the professional and thorough manner in
which the audit was carried out.

Please let me know if you have any questions or need any additional information regarding the
comments or attachments.

Sincerely,



Brian Branch
President & Chief Executive Officer
                                World Council of Credit Unions
                               Management Response to Findings
                                       RUFCOD Audit


2013-01 Employee Billing Records and Approvals

The procedure in place for the life of the program was that third country national employees in
regional offices would submit their billing records to the Kabul office on a monthly basis. Due to
the distances involved and travel difficulties, it was not feasible to ship signed paper copies for
receipt in a timely manner. The employee’s e-mail to which the billing record was an attachment
served as the employee’s signature and verification of the billing record. From the project start until
after the second COP was in place, these billing records were submitted to a Kabul office project
employee. Since the project has ended and that employee is no longer employed, we do not have
access to the e-mails she received directly from employees with the billing record attachment.

The second Chief of Party recognized the deficiency in the billing record review process and
instituted a new procedure in July of 2011. The procedure employed from that time forward
required that billing records for third country national staff be submitted to the COP for review and
approval before being forwarded to headquarters. This procedure remained in place through the
end of the program.

We disagree with the finding that we do not have billing records in support of the Eid bonus paid
(as presented in the table as period: 09-10, date: 10/14/2010, transaction description: AFII: 09/10
DG Salaries & Benf, amount: $4,349) and request that this amount be removed from the questioned
costs. We do in fact retain timesheets in support of payments to employees. Documentation was
provided to the auditors during their field work and again on October 10 demonstrating that there is
a signed timesheet documenting that the employees worked on the project during the time period in
question. The auditor’s expenditure sample #124 included support for both salary and Eid bonus
payments. Salaries were paid with check #240 and the Eid bonuses were paid with check #241.
There is one timesheet for each month and that one timesheet serves to support both salary and Eid
bonus payments. The signed timesheets were attached to the support for check #240, however they
serve as support for the same time period as the Eid bonus. Copies of the relevant documents in
support of this questioned transaction are attached here (Attachment 1).

Our policy on document retention, updated in November of 2012, addresses the deletion of e-mails
noted in the finding. We will initiate a procedure for periodic review of billing records to verify
completeness.


2013-02 Contracting Officer Approval to Purchase Equipment and Property

The generators were purchased on an as needed basis when existing equipment failed. Project staff
could not operate without power. However, given that on average it took from twelve to fifteen
days to complete the approval process, it was not reasonable to leave personnel without power for
that length of time, particularly in insecure areas. We agree with the recommendation to remit
payment to the Government of $43,488.
2013-03 Excess Cash Balance

The project was designed to work in “post kinetic” areas; however, during the life of the contract
the security situation in the country was unstable. In many instances although a certain amount of
funding was requested for a subgrantee, by the time the SF1034 was processed by USAID, received
by WOCCU headquarters and then sent to the Kabul office, the security situation worsened or other
unanticipated events had arisen which in our view made it imprudent to disburse the funds to the
Afghan entity. Exacerbating this timing issue was the unpredictability of receipt of funds from
USAID as processing of the SF1034 request could take anywhere from 4 to 41 days. Exceeding the
“generally thirty days” requirement to disburse the funds was a result of our duty to safeguard
federal funds. A review of the SF1034 request for advance forms submitted to USAID over the
contract period will demonstrate that the advance request forms always adjusted for any undisbursed
funds from the previous period. As such, we do not see a need to create a policy as this is already
done as a matter of course.

It is already our policy to use interest bearing accounts for project funds. Our basis for selection of
AIB for project accounts was that it was a Kabul-based commercial bank that offered branches in
other provinces and a broad range of services including international access. This allowed for
proper internal controls for transactions between headquarters and Afghanistan.


2013-04 Documentation of Disbursements to Subgrantees

Although we do not have a separate receipt for each funds disbursement to the subgrantees, we do
have supporting documentation for all of the subgrantee expenditures.

We do not agree with the questioned costs with respect to                for May 2011 as presented
in the table in the audit report. We provided the attached documentation to the auditors during their
field work for their cash management sample #18 which provides support for the full amount. We
request that the questioned costs of $1,596 be removed from the audit report. We also request that
the sentence beginning, “For one additional item, the funds provided to the subgrantee …”
be stricken from the report as the documentation supporting all of those costs is attached
(Attachment 2).

We will initiate a procedure for specifying the types of documentation required for each transaction
with subgrantees and vendors and their retention period.


2013-05 Foreign Exchange Conversions

During the life of the contract we used a weighted average currency conversion. The weighted
average conversion spreads the fluctuation in currency over the life of the project, thus reducing the
risk for over- or under-charging of expenditures to the donor. World Council uses this methodology
for all overseas project accounting.
We will create a policy for contracts requiring the Chief of Party to document the foreign currency
conversion process established by or agreed to by the USAID Mission upon project start up. The
policy will require that the document be distributed to the appropriate staff.


2013-06 Subgrantee Monitoring

One element of the “Afghanization” of RUFCOD required by USAID was the transfer of direct
monitoring of the individual IIFCs to the IIFC Group. WOCCU closed all of its regional offices
when USAID reduced the project budget by about $17.0 million, so we had to transfer field
responsibility for IIFC monitoring to the IIFC Group. That system worked very well. WOCCU
and the IIFC Group instituted monthly performance reviews of each IIFC including progress
towards individual IIFC work plan targets, financial reporting, loan portfolio monitoring and
delinquency control, etc. We will prepare a compliance monitoring checklist and procedure for its
implementation in future programs.


2013-07 Employee and Vendor Verification of Existence

We are not aware of a requirement to track the whereabouts of former employees after their
employment ends. We documented the personal information for employees upon their engagement.
We understand that the auditors requested their affiliate in Kabul to contact the IIFC Group for
verification of the two employees mentioned in the audit report. We were puzzled that this
verification was not provided by the Group and we do not know who the audit firm contacted at the
IIFC Group to request this verification. We attach an e-mail from the Chief Executive Officer of
the IIFC Group which confirms the employment dates, phone numbers and address information for
both persons whose existence is questioned by the auditors (Attachment 3). We had previously
provided their tax ID numbers.

We do not agree that we need to create a policy on incorporating phone numbers and addresses in
employment records when this is already being done. As the audit noted that there are instances
where the records are incomplete, we will add an item to the project compliance checklist requiring a
periodic review to verify that the personnel documentation is complete.

The audit report notes that two vendors could not be confirmed. In both cases, the expenditures
were made by a subgrantee, and the subgrantee submitted supporting documentation for the
expense. In the case of vendors, verification is provided by having received the product or service.
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
